May 19, 2020
Scott S. Harris
Clerks Office
United States Supreme Court
1 First Street, NE
Washington, DC 20543
Re:
Second Supplemental Brief for Petitioner in 19-737,
Nathaniel Douse v. United States of America, et al.

James

Dear Mr. Harris:
Petitioner would like to inform the Court that Appendix 2, North
Carolina Mandatory Directives was filed in the Eleventh Circuit, Case No.
16-17573, May 30, 2019. Specifically:
ECF header page 5 of 32 at App. 2-4,
ECF header pages 7-8 of 32 at App. 4-8,
ECF header page 10 of 32 at App. 8,
ECF header page 12 of 32 at App. 8,
ECF header page 14 of 32 at App.8-10, and
ECF header page 16 of 32 at App. 10-11.
Thank you for your courtesy in this matter. If you have any questions
or concerns, please do not hesitate to contact us.
Very truly yours,

Donna J. Wolf
Enclosures

